                                          UNITED STATES DEPARTMENT OF EDUCATION 

                                               OFFICE OF INSPECTOR GENERAL 

                                                                    REGION V 

                                                            III NORTH CANAL. SUITE 940 

                                                              CHICAGO, ILLINOIS 60606 


                                                                   FAX: (312) 353-0244
     Audit                                                                                                                                    Investigation
(312) 886-6503                                                                                                                               (312) 353-7891



                 MEMORANDUM

                 DATE:             June 17,2003

                 TO:               Grover J. Whitehurst
                                   Director, Institute of Education Sciences



                 FROM:                         owd
                                   Regional Inspector General for Audit
                                   Chicago,IL

                 SUBJECT           FINAL AUDIT REPORT
                                   Review of Management Controls Over Scoring of the National
                                   Assessment ofEducational Progress (NAEP) 2000
                                   Control Number ED-OIG/A05-COOlO

                 Attached is our subject final report that covers the results of our review of management
                 controls over scoring of the National Assessment of Educational Progress 2000
                 assessment during October 1, 1999, through September 30, 2000. We received your
                 comments concurring with the findings and recommendations in our draft audit report.

                 Please provide the Supervisor, Post Audit Group, Office of Chief Financial Officer and
                 the Office of Inspector General with quarterly status reports on promised corrective
                 actions until all such actions have been completed or continued follow-up is unnecessary.

                 In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by
                 the Office of Inspector General are available, if requested, to members of the press and
                 general public to the extent information contained therein is not subject to exemptions in
                 the Act.

                 We appreciate the cooperation given us in the review. Should you have any questions
                 concerning this report, please call me at 312-886-6503.

                 Attachment




                       Our mission Is to promote the efficiency, effectiveness, and integrity of the Department's programs and operations.
      Review of Management Controls Over Scoring of the National 

                Assessment of Educational Progress 2000 





                                   FINAL AUDIT REPORT
                                            ED-OIG/A05-C0010
                                                June 2003



Our mission is to promote the efficiency,                      u.s. Department of Education
effectiveness, and integrity of the                              Office of Inspector General
Department's programs and operations.                                       Chicago, Illinois
                                Notice 


 Statements that managerial practices need improvements, as well as other
conclusions and recommendations in this report represent the opinions of the
Office of Inspector General. Determinations of corrective action to be taken
    will be made by the appropriate Department of Education officials.

 In accordance with Freedom of Information Act (5 U.S.C. §552), reports
  issued by the Office of Inspector General are available, if requested, to
members of the press and general public to the extent information contained
              therein is not subject to exemptions in the Act.
EXECUTIVE SUMMARY ...................................................................................................... 1 


BACKGROUND .................................................... .................................................................. 2 


NAEP MANAGEMENT CONTROLS OVER SCORING ARE ADEQUATE .................... 8 


          Monitoring .................................................................................................................... 8 

                Recommendations ........................................................................................... 10 


          Receipt and Control Process ...................................................................................... 10 


          Scoring ........................................................................................................................ 10 


          Data Quality ............................................................................................................... 11 


          Analysis and Reporting .............................................................................................. 12 


          Other Issues ................................................................................................................ 13 


OTHER MATTERS .............................................................................................................. 13 


OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 14 


STATEMENT ON MANAGEMENT CONTROLS ............................................................. 17 


ATTACHMENTS 


          Attachment 1 - Additional Management Control Detail Not Presented 

                         in the Body of the Report .......................................................... 7 pages 


          Attachment 2 - Institute of Education Sciences' Comments on the Draft 

                         Report ........................................................................................ 3 pages 

FINAL AUDIT REPORT                                                                    ED-OIG/A05-COOIO 



                                 EXECUTIVE SUMMARY 


Our audit objectives were to determine whether management controls over scoring of the
National Assessment of Educational Progress (NAEP) 2000 assessment were in place and
adequate to provide reasonable assurance that the assessment results could be relied on during the
period October 1, 1999, through September 30,2000. Based on the work performed, we
determined that the management controls over scoring of the NAEP 2000 assessment were
adequate and generally working as intended. However, our audit work disclosed two nonmaterial
weaknesses regarding the monitoring of mathematics qualification sets and scorer qualifications.
State assessments required under the No Child Left Behind Act could also benefit from standards
for management controls over scoring. We plan to report on this separately. The Institute of
Education Sciences concurred with our recommendations and its written comments are included
as Attachment 2 to this report.

To accomplish our objectives, we (1) obtained background materials and interviewed officials
from the National Center for Education Statistics (NCES), National Assessment Governing Board
(NAGB), Westat, Educational Testing Service (ETS), and NCS Pearson (NCS) to gain an
understanding of their role in conducting the NAEP 2000 assessment; and (2) gained an
understanding of current Administration and Congressional proposals that could have an affect on
NAEP such as the Government Performance and Results Act (GPRA), the No Child Left Behind
Act, the Elementary and Secondary Education Act, and other legislation affecting management
controls. We also gained an understanding of state assessments through interviews with ETS and
NCS officials. We reviewed and tested management controls over scoring to ensure the
processes were adequate and working as intended. To review management controls over scoring,
we interviewed officials to identify the management controls that were in place and reviewed
various documents used in the process. To test the management controls over scoring, we
examined the NCS mainframe final data for anomalies, identified the scorers for each subject, and
interviewed judgmentally selected scorers. In addition, we reviewed the NCS and ETS computer
processed data to ensure that it was reliable. To determine data reliability, we assessed data
completeness, data authenticity, and the accuracy of computer processing. In addition, we gained
an understanding of the ETS scoring analysis and reporting process. Further, we reviewed
selected NCS employee payroll, personnel file, and position description records, and NCS' NAEP
profit margin.




June 2003                     Review of Management Controls Over                      Page 1 of 18 

                  Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                            ED-OIGI A05-COOIO




                                         BACKGROUND
NATIONAL ASSESSMENT OF EDUCATIONAL PROGRESS
As mandated by Congress, NAEP surveys the educational accomplishments ofD.S. students and
monitors the changes in those accomplishments. NAEP, often called the "Nation's Report Card,"
is described as the only nationally representative and continuing assessment of what America's
students know and can do in various subjects. NAEP provides a comprehensive measure of
students' learning at critical junctures in their school experience. The assessment has been
conducted regularly since 1969 and for over 30 years NAEP has been collecting data to provide
educators and policymakers with accurate and useful information. Because NAEP makes
objective information about student performance available to policymakers at national and state
levels, it plays an integral role in evaluating the conditions and progress of the nation's education.

Over the years, NAEP has evolved to address
questions asked by policymakers, and NAEP now
refers to a collection of national and state                        NAEP Components
assessments. The collection of assessments
                                                                                                                 I
includes main NAEP (state and national) and
long-term trend NAEP (national).                             I The National Assessment of Educational Progress
                                                                                   NAEP                          I

The main assessments report results for grade
                                                                        I   MAIN     I      ILONG-TERM I

samples of fourth, eighth, and twelfth grade            I            ST!;EHHljINATI~N~IINATI~NALI
students. They periodically measure students' 

achievement in reading, mathematics, science, 

writing, U.S. history, civics, geography, and 

other subjects. In 1997, main NAEP returned to 

annual assessments. In 2000, the main NAEP assessed mathematics and science at grades four, 

eight, and twelve and reading at grade four. 


The long-term trend assessments report results for age/grade samples (nine year-olds/fourth 

grade; thirteen year-olds/eighth grade; and seventeen year-olds/eleventh grade). They measure 

students' achievement in mathematics, science, reading, and writing. Measuring trends of student 

achievement, or change over time, requires the precise replication of past procedures. Therefore, 

the long-term trend instrument does not evolve based on changes in curricula or in educational 

practices. In 1999, the long-term trend assessment began to be administered on a four-year 

schedule and in different years from the main national and state assessments in mathematics, 

science, reading, and writing. As a result, in 2000, this assessment was not administered. 


Initiated in 1990, state assessments enable participating states to compare their results with those 

of the nation and other participating states. Because the national NAEP samples (main and long­

term trend) were not designed to support the reporting of accurate and representative state level 

results, Congress authorized state assessments. State assessments have separate representative 

samples of students selected for each jurisdiction that participates, to provide these jurisdictions 




June 2003                       Review of Management Controls Over                            Page 2 of 18
                  Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                                                                     ED-OIG/A05-COOlO


with reliable state level data concerning the achievement oftheir students. The main national and
state assessments use the same assessment booklets. The state NAEP assessment is administered
in every even year. In 2000, the state NAEP assessed mathematics and science in grades four and
eight.

NAEP has two major goals: to reflect current educational and assessment practices and to
measure change reliably over time. To meet these dual goals, NAEP selects nationally
representative samples of students who participate in either the main assessments or the long-term
trend assessments. These two assessments report information for the nation and for specific
geographic regions of the country (Northeast, Southeast, Central, and West). These assessments
use distinct data collection procedures, separate samples of students, and test instruments based
on different frameworks. The results are also reported separately.

Participation in NAEP 2000 was voluntary for states, school districts, schools, teachers, and
students. Some state legislatures mandated participation; others left the option to participate to
their superintendents and other educational officials at the local level. Other states chose not to
participate. Before any student selected to participate actually took the test, the student's parents
decided whether or not their child would do so. Under the No Child Left Behind Act, NAEP
participation is mandatory for all recipients of Title I funds.

NAEP assessments used a combination of multiple-choice and constructed response questions.
The multiple-choice questions are electronically scanned and scored. Professional scorers
evaluate the constructed response questions. The assessments are not designed to provide
individual student scores. Each student receives only a small portion of the assessment. The
assessment sessions last 45 to 90 minutes depending on the subject. The entire assessment
process, from administering the assessments, to analyzing and reporting the results, can take
anywhere from 9 to 18 months.




 June 2003                       Review of Management Controls Over                     Page 3 of 18 

                   Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                                       ED-OIG/A05-COO 10


Since 1983, the Department of Education (Department) has conducted NAEP through a series of
contracts, grants, and cooperative agreements with various entities. The following chart depicts
the relationship of these entities for the audit period October 1, 1999, through September 30,
2000.



                                NAEP ENTITIES 


                                             USEd
NAEPPo/ioy                          U.S. Department of Education

             NAGB

                                      Office of Educational
                                    Research and Improvement




                                            NCES
                                        National Center
                                               for
                                       Education Statistics

                     NAEP Admln/.frat/on


                                            NAEP
                                       National Assessment
                                                 of
                                       Educational Progress




                           Westat                                 ETS
                         SlImpl/ngllnd                Educational Testing Service
                         Datil CoIleotion              Development, Scoring,
                                                       Anlllv.l. and Reporting



                                       NCS Pearson                                AIR
                                      National Computer Systems       American Institutes for Research
                                                Scoring                         Report/ng



                                                                                                             March 9, 2001   ,




NATIONAL CENTER FOR EDUCATION STATISTICS
The Commissioner of Education Statistics, who heads the NCES in the Department, is
responsible, by law, to carry out the NAEP project through competitive awards to qualified
organizations. NeES establishes agreements with private companies for test development and
administration services. NCES publishes the results of the NAEP assessments and releases them
to the media and public. NCES strives to present this information in the most accurate and useful




June 2003                     Review of Management Controls Over                                         Page 4 of 18 

                 Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                    ED-OIG/A05-COOIO


manner possible, publishing reports designed for the general public and specific audiences and
making the data available to researchers for secondary analyses.

NATIONAL ASSESSMENT GOVERNING BOARD
In 1988, Congress established the NAGB to formulate policy guidelines for NAEP. The NAGB,
appointed by the Secretary of Education but independent ofthe Department, governs the
program. It is authorized to set policy for the NAEP. NAGB selects the subject areas to be
assessed, develops guidelines for reporting, and gives direction to NCES. It is required by law to
approve all assessment questions and review the scoring guides. NAGB monitors the field-testing
process and may suggest changes in assessment questions.

WESTAT
NCES has a cooperative agreement with Westat. Under this agreement, Westat selects the school
and student samples, trains assessment administrators, and manages field operations (including
assessment administration and data collection activities). For the national assessment, Westat
administers the assessments and for the state assessment, the individual states administer the
assessments. For the state assessments, Westat conducts quality control monitoring ofthe
assessment administration by either sending staff to schools or calling the state administrators.

EDUCATIONAL TESTING SERVICE
NCES has an agreement with ETS. Since 1983, NCES has conducted the assessment through a
series of contracts, grants, and cooperative agreements with ETS. Under these agreements, ETS
is responsible for developing the assessment instruments, scoring student responses, analyzing the
data, and reporting the results. ETS scores the multiple-choice questions and subcontracts with
NCS to score the constructed response questions. ETS analyzes the scoring data and summarizes
the results. ETS then drafts reports for NCES to review and approve.

NCSPEARSON
NCS, which serves as a subcontractor to ETS, is responsible for printing and distributing the
assessment materials and for scanning and scoring constructed response questions. NCS handles
all receipt control, data preparation and processing, scanning, and scoring activities. NCS
performs optical scanning of multiple-choice selections, handwritten responses, and other data.
This image based scoring system eliminates paper in the scoring process, which also permits on­
line monitoring of scoring reliability and creation of recalibration sets.

AMERICAN INSTITUTES FOR RESEARCH
American Institutes for Research (AIR), which serves as a subcontractor to ETS, is responsible
for development of the background questionnaires. Students, teachers, and principals complete
these questionnaires to provide NAEP with data about students' school backgrounds and
educational activities. Students answer questions about the courses they take, homework, and
home factors related to instruction. Teachers answer questions about their professional
qualifications and teaching activities, while principals answer questions about school level
practices and policies. Relating student performance on the cognitive portions of the assessments
to the information gathered on the background questionnaires increases the usefulness ofNAEP



June 2003                      Review of Management Controls Over                     Page 5 of 18 

                  Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                    ED-OIG/A05-COOI0


findings and provides the context for a better understanding of student achievement. AIR did not
perform work related to our audit objectives; therefore, it was not included in our review.

NO CHILD LEFT BEHIND ACT
On January 8, 2002, President Bush signed into law the No Child Left Behind Act of 200 1. This
new law represents his education reform plan and contains the most sweeping changes to the
Elementary and Secondary Education Act since it was enacted in 1965. It changes the federal
government's role in kindergarten through grade 12 education by asking America's schools to
describe their success in terms of what each student accomplishes. The act contains the
President's four basic education reform principles: stronger accountability for results, increased
flexibility and local control, expanded options for parents, and an emphasis on teaching methods
that have been proven to work.

An "accountable" education system involves several critical steps:

•      States create their own standards for what a child should know and learn for all grades.
       Standards must be developed in math and reading immediately. Standards must also be
       developed for science by the 2005-06 school year.

•      With standards in place, states must test every student's progress toward those standards
       by using tests that are aligned with the standards. Beginning in the 2002-03 school year,
       schools must administer tests in each of three grade spans: grades 3 through 5, grades 6
       through 9, and grades 10 through 12 in all schools. Beginning in the 2005-06 school year,
       tests must be administered every year in grades 3 through 8 in math and reading.
       Beginning in the 2007-08 school year, science achievement must also be tested.

•      Each state, school district, and school will be expected to make adequate yearly progress
       toward meeting state standards. This progress will be measured for all students by sorting
       test results for students who are economically disadvantaged, are from racial or ethnic
       minority groups, have disabilities, or have limited English proficiency.

•       School and district performance will be publicly reported in district and state report cards.
        Individual school results will be on the district report cards.

•       If the district or school continually fails to make adequate progress toward the standards,
        then they will be held accountable.

The No Child Left Behind Act required changes in the NAEP assessment schedule. As a result,
state participation in NAEP reading and mathematics biennial assessments in grades four and eight
is required of states participating in Title I. Previously, state NAEP reading and mathematics was
performed on a four-year cycle.




June 2003                       Review of Management Controls Over                    Page 6 of 18 

                  Scoring of the National Assessment of Educational Progress 2000 

         FINAL AUDIT REPORT                                                                     ED-OIGI A05-COO10


         GOVERNMENT PERFORMANCE AND RESULTS ACT
         This audit falls under the context of the GPRA, specifically data quality and reliability. To report
         the NAEP results, data needs to be accurate, complete, and timely, because the Department's
         programs rely on NAEP as a data source. The Department's 2000 Performance Report objectives
         identified Department goals and individual programs that relied on NAEP. Department goals 1
         and 2 had objectives that relied on NAEP as a data source. There were six individual programs
         that contained objectives that relied on NAEP as a data source. The individual programs
         included: (1) Title I Grants for Schools Serving At-Risk Children, (2) Educational Technology
          State Grants, (3) State Assessments, (4) Indian Education, (5) Grants to States and Preschool
         Grants Programs - IDEA Part B, and (6) Perkins Vocational and Technology Education. While
         the Strategic Plan for 2002-2007 has changed significantly, NAEP is still used extensively as a
         data source.




          June 2003                       Review of Management Controls Over                     Page 7 of 18 

                            Scoring of the National Assessment of Educational Progress 2000 




-~~---   ---------------         ---~--'--------------------
FINAL AUDIT REPORT                                                                  EO-OIG/A05-COOI0




 NAEP MANAGEMENT CONTROLS OVER SCORING ARE ADEQUATE

The management controls over scoring of the NAEP 2000 assessment were adequate and
generally working as intended for the period October 1, 1999, through September 30,2000. Our
audit work confirmed that the management controls provided reasonable assurance that the
assessment results could be relied upon. However, our audit work did identifY two nonmaterial
weaknesses regarding mathematics qualification sets and scorer qualifications. We recommend
that the Director of the Institute of Education Sciences (formerly Office of Educational Research
and Improvement) instruct NCES to (1) improve its monitoring ofETS and NCS for adherence
to the terms of its cooperative agreements and (2) require NCS to use a qualification set of papers
for mathematics and document that the scorers passed a qualification set of papers. We also
noted that state assessments required under the No Child Left Behind Act could benefit from
standards for management controls over scoring. We plan to report on this separately. This
report highlights the management controls. These controls are more comprehensive than
presented here. For additional details regarding these management controls see Attachment 1.

Monitoring

For monitoring management controls, we considered NCES' monitoring of its NAEP Cooperative
Agreements with ETS and Westat. We also considered ETS' monitoring of its sub-contract with
NCS. NCES monitors its NAEP Cooperative Agreements with Westat and ETS through periodic
meetings and reports. NCES officials informed us that its NCS monitoring is limited due to travel
funds. ETS also monitored NCS through periodic meetings and reports. In addition, ETS
monitored the scoring process through on-site assessment experts during the constructed
response scoring at NCS. Our review of monitoring management controls disclosed they were
adequate except for two nonmaterial weaknesses.

NCBS needs to improve its monitoring to ensure adherence to the terms of the NAEP Technical
Application. Our review of monitoring management controls disclosed two nonmaterial
weaknesses where the terms of the NAEP 2000 Technical Application were not met. These
weaknesses included mathematics qualification sets and scorer qualifications.

Mathematics Qualification Sets

NCS did not use andlor document mathematics qualirying sets for training on extended
constructed response questions as required in the NAEP 2000 Technical Application. Extended
constructed response questions are defined as questions worth four points or higher. According
to the NAEP 2000 Technical Application, Chapter 14, page 10, before scoring live responses to
extended constructed response questions, each scorer must pass a qualification set of papers to
ensure that he or she was able to score with the acceptable level of reliability.

The audit disclosed an End of Project Report document that indicated, "NAEP Math did not use
any qualifYing sets for training so everyone that was trained scored. Only two people were



 June 2003                      Review of Management Controls Over                  Page 8 of 18
                  Scoring of the National Assessment of Educational Progress 2000


                                                                                                       --------
FINAL AUDIT REPORT 	                                                                  ED-OIG/A05-COOIO


released due to poor performance." In addition, an NCS employee informed us that ETS made 

the decision that no qualifying sets would be used for mathematics. 


ETS and NCS officials informed us that practice papers, rather than formal qualification sets, 

were used to ensure that scorers were able to score with an acceptable level of reliability. 

However, the use of practice papers for this purpose was not documented. While the quality of 

scoring was high, it may have been higher had NCS met the requirement for each scorer to pass a 

qualification set of papers to ensure that he or she was able to score with the acceptable level of 

reliability. ETS and NCS officials indicated that in the future only sets explicitly identified as 

qualification sets would be used for qualification and that a strict record of qualification 

performance would be kept. 


Scorer Qualifications 


Our audit work also disclosed that some scorers did not meet scorer qualification requirements. 

We interviewed 14 scorers of which 12 scored at the grade 12 level. Ofthese 12 scorers, 8 did 

not meet the scorer qualification requirements for assessments at the grade 12 level outlined in the 

NAEP 2000 Technical Application. According to the NAEP 2000 Technical Application, 

Chapter 14, pages 6 and 7, scorers had to have the following qualifications: 


•	     a minimum of a bachelor's degree in an appropriate academic discipline, such as
       mathematics, science, English, or education, and
•	     demonstrable ability in performance assessment scoring, with
•	     teaching experience at the elementary or secondary level preferred.

For assessments at the grade 12 level, special academic experience in the subject being assessed
was required. For example, to score the grade 12 science assessment, scorers needed to have
high school science teaching experience, or a university or graduate degree in science or science
education.

ETS and NCS officials informed us that the available work force at that time could not meet the
qualification requirements for the grade 12 level. In the Spring 2000 marketplace, individuals
with degrees in mathematics, science, and closely related fields, were in high demand and those
interested in short-term positions scoring NAEP were difficult to find. The officials also indicated
that a formal process for exceptions to the qualification requirements should have been
implemented to allow for authorization by NCES. While the quality of scoring was high, it may
have been higher had NCS met the qualification requirements for the grade 12 level. Changes to
the new NAEP Cooperative Agreement removed the qualification requirements. However,
NCES could improve its monitoring to ensure adherence to the terms ofthe Agreement.




June 2003                       Review of Management Controls Over                    Page 9 of 18 

                  Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT 	                                                                    ED-OIG/A05-C001O


Recommendations

We recommend that the Director of the Institute of Education Sciences (formerly Office of
Educational Research and Improvement) instruct NCES to:

1.1 	   Improve its monitoring ofETS and NCS for adherence to the terms of the cooperative
        agreements.

1.2 	   Require NCS to use a qualification set of papers for mathematics and document that the
        scorers' passed a qualification set of papers.

Receipt and Control Process

Our review of the management controls related to the receipt and control process focused on the
roles of Westat and NCS in ensuring that all assessment booklets sent to the participating schools
were accounted for and returned to NCS for inclusion in its scoring database. 1 The receipt and
control process used by Westat and NCS provided reasonable assurance that all assessment
booklets sent to the selected schools were accounted for and returned to NCS.

Scoring

Our review of the scoring management controls considered the roles ofETS and NCS in ensuring
that the (1) correct constructed response rubric and multiple-choice answer keys were used, (2)
scorer qualification requirements were met, (3) scorers were trained, and (4) scorers were
monitored for reliability to ensure the scoring of each question was consistent among the scorers
and over time. NCS was responsible for scoring the constructed response questions and ETS was
responsible for scoring the multiple-choice questions. ETS performed quality assurance steps
before the assessments were conducted that are related to scoring. These steps included
independent verification of multiple-choice question keys, review of constructed response
questions and scoring rubrics, and review of all multiple-choice and constructed response
questions by members ofNAEP subject area committees. Before scoring live responses to
extended constructed response questions, each scorer must pass a qualification set of papers to
ensure that he or she is able to score with the acceptable level of reliability. In addition, ETS and
NCS selected training materials for constructed response scoring, which included anchor,
practice, calibration, and qualification papers for each response to be scored and final scoring
rubrics. 2 NCS used these papers to provide scorer training prior to actual scoring of constructed
response questions.

During scoring NCS used four methods to monitor reliability. These methods included
                                                                    3
calibration, backreading, interrater reliability, and trend scoring. We determined that NCS'


1 For additional infonnation on Receipt and Control Process see Attachment 1, page 1.
2 For additional infonnation on Scoring see Attachment 1, pages 1 and 2.
3 Ibid.




June 2003                         Review of Management Controls Over                    Page 10 of 18 

                    Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                        ED-OIG/A05-COOIO


monitoring reliability methods provided reasonable assurance of scoring quality and that it met the
minimum standards for NAEP 2000 regarding interrater reliability.

ETS performed on-site monitoring at NCS during constructed response scoring. This included
monitoring interrater reliability reports, I-tests, frequency distributions of scores, and the rate of
        4
scoring. NCS also used these monitoring tools. The on-site monitoring kept NAEP
management informed of scoring issues or problems.

Data Quality

For data quality management controls, we considered the roles ofETS and NCS. Our
examination was based on interviews and review of documentation. 5 ETS performed quality
assurance before the assessments were conducted, on-site monitoring at NCS during constructed
response scoring, database quality assurance on the scoring database during scoring and after
scoring is completed, and quality assurance steps undertaken as part of statistical analysis of data.
NCS performed quality assurance when scanning the assessment booklets into the database for
image scoring, during scoring, and prior to data delivery to ETS. We also examined computer­
processed data for reliability.

The quality assurance steps performed by ETS before the assessments were conducted related to
pre-field testing the review process, field-testing the assessments, and preparing a thorough
scoring planning memorandum ensured that meaningful data would be obtained. If multiple­
choice questions lack single correct answers, or if constructed response questions do not have
solid scoring rubrics, then no scoring or analysis process, no matter how carefully planned and
executed, will yield meaningful data.

ETS performed quality assurance steps before the assessments were conducted that were related
to data quality. These steps were designed to ensure multiple-choice questions have a single
correct answer and constructed response questions have a solid scoring rubric in order to yield
meaningful data.

The on-site monitoring performed by ETS was instrumental in ensuring the quality of the scoring
data as constructed response scoring was being performed. The various reports monitored while
on-site would identify problems with data quality before scoring was completed and the scoring
data sent to ETS.

ETS database quality assurance involved steps taken once the assessment data was sent to ETS.
Many of these steps were designed to ensure that the data has expected characteristics and meets
the basic quality standards before analysis work is completed.

The NCS data quality assurance steps included scanning, scoring, and data delivery. The NCS
scanning process provided reasonable assurance that the data entered into the database was

4   Ibid.
5   For additional information on Data Quality see Attachment 1, pages 2 through 6.


June 2003                          Review of Management Controls Over                     Page 11 of18 

                      Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                        ED-OIG/A05-COOlO


accurate. The NCS data quality assurance steps for scoring and data delivery ensured that the
data was accurate.

For data quality we examined computer-processed data for reliability. Our testing for data
reliability, focused on assessing the competency of the data. To determine data reliability we
assessed data completeness, data authenticity, and the accuracy of computer processing. For
details on our testing see the Objective, Scope, and Methodology section.

As part of our data completeness work, we tested management controls over scoring by
examining the NCS mainframe final data for anomalies, identifYing the scorers for each subject,
and judgmentally selected scorers to interview. Our examination of the data for anomalies
considered many issues, such as (1) the number of scorers by question, subject, scoring date, and
scorer identification number; (2) various scoring scenarios; and (3) scorer consistency by question
and identification number. We identified and reconciled the number ofNAEP 2000 constructed
response and multiple-choice questions, number of scorers, and time period for scoring the
constructed response questions to various documents provided by ETS and NCS.

Our examination ofthe NCS data for anomalies disclosed no issues of concern. Our
reconciliation ofthe above information to various documents provided by ETS and NCS
disclosed that they generally reconciled.

The review of data quality management controls disclosed no concerns regarding its reliability.
The quality assurance steps performed by ETS and NCS disclosed no concerns and provided
reasonable assurance that the data was reliable. Our testing for data reliability regarding data
completeness, data authenticity, and the accuracy of computer processing disclosed no concerns.
We compared 100 percent of the scoring data from the NCS mainframe final data to the ETS
Secondary User data. Our testing confirmed that ETS processed all NAEP 2000 scoring data
properly once it received the data from NCS. In addition, we found no anomalies in the NCS data
that caused concern. Our testing disclosed that the ETS Secondary User database accurately
reflected the source records. We determined that the number of assessments received by ETS and
available for use in the Nation's Report Card generally met the Westat sample requirements.

Analysis and Reporting

For analysis and reporting management controls, we considered the role ofETS. Our
                                                                     6
examination was based on interview and review of documentation. Quality assurance steps
undertaken as part of statistical analysis of data and preparation of reports included three distinct
sets of quality assurance processes. These included a system offormal procedural and statistical
checks on the data analysis process, a thorough series of plausibility checks, and quality assurance
ofNAEP reports. However, the reporting process was outside the scope ofthis audit so we did
not perform work in this area.



6   For additional information on Analysis and Reporting see Attachment 1, page 6.


June 2003                           Review of Management Controls Over                    Page 12 of 18 

                      Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                    ED-OIG/A05-COOIO


Our review of the quality control steps undertaken as part of statistical analysis of the NAEP 2000
data disclosed that the steps were adequate. The procedural and statistical checks on the data
analysis process should provide reasonable assurance that any data abnormalities were caught and
resolved prior to reporting on the data. The quality controls were augmented with computerized
checking that should reduce the likelihood of human error in the process. The plausibility checks,
which compare data to expectations, historical precedent, and data obtained through other
analysis methods, were designed to make sure the data "makes sense", and thereby further
increase the reliability ofthe data. The statistical analysis process used by ETS provides
reasonable assurance that the data accurately reflects the NAEP 2000 scoring results.

Other Issues

We considered other issues that might affect the management controls such as incentive payments
for scorers and NCS' NAEP profit margin. To determine whether these issues were of concern
and whether management controls were working as intended we (1) interviewed 14 NCS scorers;
(2) reviewed NCS position descriptions for a scoring director, a scoring supervisor, a trainer, and
a scorer; (3) reviewed 3 NCS scorer personnel files; (4) reviewed 4 NCS scorer payroll records;
and (5) examined NCS' December 2000 accounting records regarding its NAEP profit margin.
Our work disclosed no concerns regarding incentive payments for scorers or NCS' NAEP profit
margin.


                                      OTHER MATTERS

The state assessments required as a result of the No Child Left Behind Act might benefit from the
NAEP management controls. In addition, to the biennial assessments required under NAEP, the
No Child Left Behind Act requires schools receiving Title I funds to have annual state
assessments in mathematics and reading in three grade spans beginning in the 2002-03 school
year. Beginning in the 2005-06 school year, assessments must be administered every year in
grades three through eight in mathematics and reading. States create their own standards for each
subject and must assess every student's progress toward those standards. We believe that each
state's design of this assessment should include some minimum level of management controls over
scoring for uniformity. The Department should consider whether the types of management
controls over scoring used for NAEP are appropriate for state assessments. We plan to report on
this separately.




June 2003                       Review of Management Controls Over                    Page 13 of 18 

                  Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                 ED-OIG/A05-COOlO




                  OBJECTIVE, SCOPE, AND METHODOLOGY 


Our audit objectives were to determine whether management controls over scoring of the NAEP
2000 assessment were in place and adequate to provide reasonable assurance that the assessment
results can be relied on during the period October 1, 1999, through September 30,2000. To
accomplish our audit objectives we

1. 	   interviewed officials from NCES, NAGB, Westat, ETS, and NCS to gain an
       understanding of their role in conducting NAEP;
2. 	   reviewed and tested management controls over scoring to ensure the processes were
       working as intended;
3. 	   reviewed and tested the ETS and NCS computer processed data to ensure that it was
       reliable;
4. 	   reviewed background materials related to NCES, NAGB, Westat, ETS, and NCS, such as:
                a. 	  The NAEP Guide, 1999 Edition
                b. 	  ETS Standards for Quality and Fairness 2000
                c. 	  ETS NAEP 2000 Technical Application
                d. 	  NAEP 1998 Technical Report
                e.    Special Provisions Cooperative Agreement 

                f     ETS Subcontract with NCS Pearson 

                g. 	  NCES Handbook of Survey Methods, September 2001
                h. 	  NCES Statistical Standards, June 1992 and draft May 2002
                l. 	  No Child Left Behind Act
               J. 	   Department's 2000 Performance Report
                k. 	  NCES Statistics and Assessment
                1. 	  Government Performance and Results Act of 1993
                m. 	  Federal Managers Financial Integrity Act of 1982
                n. 	  Chief Financial Officers Act of 1990
                o. 	  Government Management and Reform Act 1994
5. 	   gained an understanding of current Administration and Congressional proposals that could
       have an affect on NAEP, such as GPRA, the No Child Left Behind Act, the Elementary
       and Secondary Education Act, and other legislation effecting management controls;
6. 	   gained an understanding ofthe ETS scoring analysis and reporting process;
7. 	   reviewed selected NCS employee payroll, personnel file, and position description records
       and NCS' NAEP profit margin; and
8. 	   gained an understanding of state assessments through interviews with ETS and NCS
       officials.

To review management controls over scoring, we interviewed officials to identify the management
controls in place and reviewed various documents used in the process. To test the management
controls, we examined the NCS mainframe final database for anomalies, identified the scorers for
each subject, and interviewed judgmentally selected scorers. We also examined the NCS data to
determine ifNCS met the minimum interrater reliability standards and second scoring


June 2003                    Review of Management Controls Over                    Page 14 of 18
                 Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                                                                              ED-OIG/A05-COOIO


requirements. To determine whether management controls were working as intended and
whether there were other issues of concern, we judgmentally selected 14 scorers to interview.
We selected the sample from a universe of 46 reading, 211 mathematics, and 273 science scorers. 7




Reliability of Computer-Processed Data

To accomplish our objectives, we relied on computer-processed data. To determine the reliability
of that data, we assessed data completeness, data authenticity, and the accuracy of computer
processing. We tested data completeness to confirm that the universe contained all scoring data
elements relevant to our audit objectives and that the data transfer from NCS to ETS was
accurate. To test for data completeness, we compared 100 percent of the scoring data from the
NCS mainframe final data to the ETS Secondary User data. We also compared the number of
national and state NAEP sample assessment booklets requested by Westat for each academic area
and grade level to the number of assessment booklets NCS printed and distributed, and to the
number of assessment booklets received by ETS as assessed. See table below for details.


         SESSION                 SAMPLE SIZE                PRINTEDIISSUED                 ASSESSED
                               NATIONALISTATE                                           NATIONALISTATE
    Grade 4 Reading            8,00010                      24,000112,000               8,504/0
    Grade 4                    13,750/112,500               208,0001189,375             14,3961101,764
    Mathematics
    Grade 4 Science            15,7501112,500               222,0001192,376             16,749/96,935

    Grade 8                    15,7501112,500               208,0001192,375             16,846/97,509
    Mathematics
    Grade 8 Science            15,7501112,500               222,0001192,376             16,837/94,055

    Grade 12                   13,75010                     39,000/20,625                14,130/0
    Mathematics
    Grade 12 Science           15,75010                     55,500/23,626                15,879/0




i For our judgmental sample selection, we selected scorers from each academic area (reading, mathematics, and
science) and scorer position description (trainer, scoring director, supervisor, scorer). We also selected scorers that
tended to score a higher number of questions than other scorers and/or scored in more than one academic area.


June 2003                         Review of Management Controls Over                            Page 15 of 18
                     Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                                                                    ED-OIG/A05-COOlO


The results of our testing confirmed that ETS processed all NAEP scoring data properly once it
received the data from NCS and that we are reasonably certain that the data is complete. We
determined that the number of assessments received by ETS and available for use in the Nation's
Report Card met the Westat sample requirements for the national assessments and for states that
participated. The ETS Secondary User database was used for analysis and reporting ofNAEP
results.

Our testing of data authenticity determined if the computer data accurately reflected the source
records. To test data authenticity, we randomly selected a sample of35 assessment booklet
records from the ETS Secondary User database and compared various scoring data to the actual
assessment booklets. We randomly selected 5 assessment booklets from each subject grade level
in the national and state NAEP 2000. The sample universe, subject, and grade levels included
8,504 reading - 4th; 116,160 mathematics - 4th; 114,355 mathematics - 8th ; 14,130 mathematics­
12th; 99,570 science - 4th; 104,928 science - 8th; 15,009 science - 12th. The actual universe for
science grades 4, 8, and 12, respectively, were 113,684, 110,892, and 15,879. Our testing
disclosed no errors in the scoring data and that the correct constructed response rubrics were used
with each question. For multiple-choice questions the scores in the ETS database accurately
reflected the assessment booklet bubble answer. A bubble answer is the question answer circle
that the student must fill in. In addition, the range for bubble answers in the ETS database
accurately reflected the range for bubble answers in the assessment booklets. For example, the
assessment booklet question may provide answer selections that ranged from A through D,
therefore the ETS database should also provide for selections that ranged from A through D.
Also, the correct answer in the ETS database accurately reflected the rubric correct answer key.
For constructed response questions we determined that the score point given for the question
response fell within the acceptable rubric range for that question. We did not test to see ifthe
 student was given the correct score for the constructed response questions because scoring is
 subjective and may vary depending on the scorer. In addition, we did not test the cluster type
questions because they are a variation of multiple-choice and constructed response questions that
would have the same subjective nature as the scoring for the pure constructed response questions.
 Our testing of data authenticity also included tracing the data from the ETS Secondary User
 database back to the NCS data to ensure there were not any extra ETS Secondary User data
records that were not supported by NCS data. Our testing disclosed the exact same number of
assessment booklet records in the ETS Secondary User database as there were in the NCS data.
 Based on our testing we believe that the ETS database is reliable and accurate.

The steps aimed at the accuracy of computer processing were designed to verify that all relevant
records were completely processed and that computer processing met the intended objectives. To
verify that all relevant records were completely processed, we performed a 100 percent test of
data elements, as discussed above, and verified the conversion of items from the NCS database to
the ETS Secondary User database was performed accurately. ETS converted some NCS data
elements, such as scoring labels and question names. Our testing disclosed that all relevant
records were completely processed and accurately converted to meet the intended objectives.




June 2003                      Review of Management Controls Over                     Page 16 of 18 

                  Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                                                                 ED-OIG/A05-COOI0


Organizations and Locations

We conducted our audit at (1) NCES' offices in Washington, DC, on October 10,2001,
December 18,2001, and November 13, 2002; (2) NAGB's offices in Washington, DC, on
December 19, 2001; (3) Westat in the NCES offices in Washington, DC, on December 20,2001;
(4) ETS' offices in Princeton, NJ, from February 26,2002, through March 6,2002; (5) NCS'
offices in Iowa City, IA, from April 2, 2002, through June 6,2002; and October 22,2002. We
held an exit conference with officials from NCES, ETS, and NCS on November 13, 2002. We
performed our audit work in accordance with generally accepted government auditing standards
appropriate to the scope of review described above.


                 STATEMENT ON MANAGEMENT CONTROLS

We have made a study and evaluation ofthe management control structure over scoring of the
NAEP 2000 assessment for the period October 1, 1999, through September 30,2000. Our study
and evaluation was conducted in accordance with generally accepted government auditing
standards. For the purpose of this report, we assessed and classified the significant management
control structure into the following categories:

•      Monitoring
•      Receipt and Control Process
•      Scoring
•      Data Quality
•      Analysis and Reporting

The scoring ofNAEP is a collaborative effort by several entities, which include NCES, Westat,
ETS, and NCS. The above listed categories of significant management control structures are a
combined effort ofthese entities. So, the management ofthese entities is responsible for
establishing and maintaining the scoring management control structure. In fulfilling this
responsibility, estimates and judgments by the entities' management are required to assess the
expected benefits and related costs of control procedures. The objectives of the system are to
provide management with reasonable, but not absolute, assurance that assets are safeguarded
against loss from unauthorized use or disposition and that the transactions are executed in
accordance with management's authorization and recorded properly, so as to permit effective and
efficient operations.

Because of inherent limitations in any management control structure, errors or irregularities may
occur and not be detected. Also, projection of any evaluation of the system to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions, or
that the degree of compliance with the procedures may deteriorate.




June 2003                     Review of Management Controls Over                   Page 17 of 18
                 Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                                                                     ED-OIG/A05-COOI0


In our opinion, the management control structure over scoring of the NAEP 2000 assessment for
the period October 1, 1999, through September 30,2000, taken as a whole, was sufficient to
meet the objectives stated above insofar as those objectives pertain to the prevention or detection
of errors, irregularities or inefficiencies that would be material in relation to the reliability of the
assessment results.

Nonmaterial weaknesses, which in the auditors' judgment are reportable conditions, are included
under the NAEP MANAGEMENT CONTROLS OVER SCORING ARE ADEQUATE section.




 June 2003                       Review of Management Controls Over                    Page 18 of 18 

                   Scoring of the National Assessment of Educational Progress 2000 

        FINAL AUDIT REPORT                     EO/OIGA05-COO10                              ATTACHMENT I



           ADDITIONAL MANAGEMENT CONTROL DETAIL NOT PRESENTED IN
                          THE BODY OF THE REPORT


        Receipt and Control Process

        Westat used an Administration Schedule as a control document for the assessments. The
        Administration Schedule is used to select the schools, students, and assessments given for
        testing. NCS bar coded the assessment booklets, which allowed it to identify which
        booklets were sent to each school and assigned to which students. The assessment
        administrators verify they have received all materials from NCS. After the assessment is
        conducted, the assessment administrator accounts for all assessment booklets and updates
        the Administration Schedule using the appropriate administration codes. The
        Administration Schedule and the assessment booklets are returned to NCS for scoring.
        All booklets are returned to NCS. NCS has a schedule of all assessments. If it does not
        receive the assessment booklets in a timely manner, it contacts Westat. Westat then uses
        the FedEx tracking system to locate the booklets. All boxes of assessment booklets
        received by NCS are scanned using pre-printed shipping labels NCS provided for the
        return of the assessment materials. NCS opens the boxes and verifies the contents. NCS
        compares the distribution file to the receipt file in order to determine if all assessment
        booklets were returned.

        Scoring

        ETS and NCS selected training materials for constructed response scoring, which
        included anchor, practice, calibration, and qualification papers to provide scorer training
        prior to actual scoring of constructed response questions. An anchor set of papers is a
        collection of questions from prior years with the score reported to illustrate the scoring
        for that question. A practice set of papers is a collection of questions from prior years
        without the score reported. The scorer will score each question then the trainer reviews
        and indicates the correct score along with an explanation for the score. A qualification
        set of papers is a collection of questions from prior years without the score reported,
        which the scorer will score and the trainer will grade.

        During scoring NCS used four methods to monitor reliability. These methods included
        calibration, backreading, interrater reliability, and trend scoring. Scorers performed
        periodic calibration scoring to make sure that similar answers to the same question were
        scored consistently. To prevent drift, whenever the scorers took a break longer than 15
        minutes they scored a set of calibration papers to refresh their training and reinforce the
        scoring criteria. During backreading, scoring supervisors reviewed each scorer's work to
        ensure that the scorer applied the scoring criteria consistently across a large number of
        responses and over time. NCS officials indicated that scoring supervisors evaluated
        about 10 percent of each scorer's work in progress. NCS also used reliability scoring,
        often referred to as interrater reliability, to maintain uniformity of scoring and to ensure
        that scorer agreement rates met minimum standards. For interrater reliability, a second


         June 2003                     Review of Management Controls Over                       Page 1 of7
                          Scoring of the National Assessment of Educational Progress 2000


-~----.--~--------------,---------------
FINAL AUDIT REPORT                      ED/OIGA05-COO10 	                          ATTACHMENT 1


rater scores a sample of questions and the agreement between the first and second scores
is compared. Ifthe interrater reliability does not meet minimum standards, that entire
question set is re-scored. An ETS official stated that the minimum standards for NAEP
2000 were 75 percent for a four point or more question, 80 percent for a three point
question, and 90 percent for a two point question. Six percent of grades four and eight
mathematics and science constructed responses and 25 percent of grade four reading and
grade 12 mathematics and science constructed responses were required to be scored by a
second scorer to obtain statistics on interrater reliability. NCS used trend scoring to
ensure scoring was consistent across years. Trend scoring included steps and checks to
ensure that scoring decisions were consistent with those made in earlier years. For each
trend question used in a previous NAEP cycle, a minimum number of responses in the
base year were scored along with the NAEP 2000 responses. The scoring system
compared the scores assigned in the original cycle with those assigned in NAEP 2000 to
determine comparability of scoring across years. We determined that NCS' methods for
monitoring reliability provided reasonable assurance of scoring quality and that it met the
minimum standards for NAEP 2000 regarding interrater reliability.

ETS performed on-site monitoring at NCS during constructed response scoring. This
included monitoring interrater reliability reports, t-tests, frequency distributions of scores,
and the rate of scoring. NCS also used these monitoring tools. Interrater reliability
reports were reviewed daily to provide immediate feedback to the scorers and correct any
scoring difficulties. During the scoring oftrend questions, a t-test was performed. If the
t-test was outside the acceptable range of +/- 1.5 of zero, scoring was stopped in order to
determine a plan of action. Generally, the t-test compares the mean score this time with
the mean score from a previous time. If the scorer did not pass, the scorer would be
retrained. For each question, a report could be run that showed the frequency distribution
of the scores. This report indicated the separate frequencies for first and second scores.
The rate of scoring could be monitored using a status tool that displayed the number of
responses scored, the number of responses first scored that still needed to be second
scored, the number of responses remaining to be first scored, and the total number of
responses remaining to be scored. This allowed for accurate monitoring ofthe rate of
scoring and to estimate the time needed for completing the various phases of scoring.
The on-site monitoring kept NAEP management informed of scoring issues or problems.

Data Quality

ETS performed quality assurance steps before the assessments were conducted that are
related to data quality. These included:

•	      Pre-field testing the review process that includes independent verification of
        multiple-choice answer keys; review of constructed response questions and
        scoring rubrics; and review of all multiple-choice and constructed response
        questions by members ofNAEP subject area committees and measurement
        specialists, the Instrument Development Committees, NCES, and NAGB.




June 2003                       Review of Management Controls Over                      Page 2 of7 

                   Scoring of the National Assessment of Educational Progress 2000 

FINAL AUDIT REPORT                    ED/OIGA05-COOIO 	                             ATTACHMENT 1


•	     Field-testing of all assessments prior to selection for operational use which
       includes administering all potential NAEP assessments to a sample of 500
       students, evaluating the functioning of constructed response rubrics, and statistical
       checks to identify problems in keying of multiple-choice assessments.

•	     Preparing a scoring planning memorandum that details for NCS the overall
       structure of the scoring process, ETS statistical and data requirements, and a
       summary of scoring completion and data delivery dates.

The ETS database quality assurance involved steps taken once the assessment data was
sent to ETS. Many of these steps were designed to ensure that the data had expected
characteristics and met the basic quality standards before analysis work was completed.
The database quality assurance procedures included:

•	     Test runs of the database using preliminary data received from NCS and Westat.

•	     Review of (a) sampling weights received from Westat, (b) scoring data sent by
       NCS, (c) sampled booklets to check accuracy of the optical mark reading system,
       and (d) special control files to check the accuracy of score assignments made in
       the NCS image-based constructed response scoring system.

•	     Resolution of any database issues or problems.

•	     Calculation of final scoring reliability figures for technical reporting.

The NCS data quality assurance steps included scanning, scoring, and data delivery.
During the scanning process, assessment booklets are batched, scanned, and bar code
read. An NCS official stated that NCS performed diagnostic tests on the scanning
machines prior to each new production run. Each production run also included three
quality assurance check sheets, which are documents placed in the batch and scanned
along with the pages from the assessment booklets. NCS used Optical Mark Readers for
scanning that also included intelligent character recognition. The scanning machine
numbered each page scanned in case a page needed to be located later. During the
scanning process, infrared was used to capture only needed information, such as students'
handwriting, into the data file. The scanning process had two edit phases that included
machine edits and image editing. Machine edits verified that each page of each
assessment booklet was present and that each field had an appropriate value. The edit
program checked each assessment booklet number, school code, and other data on the
booklet cover for valid value ranges. The edit program then checked each block of the
assessment booklet for validity and continued through each question within the block.
Each piece of input data was checked to verify that it was of an acceptable type, that
values fell within a specified range, and that it was consistent with other data values.
Each scanning machine has built in recovery methods. Attached to the scanning machine
was a portable computer that reported scanning errors.




June 2003                      Review of Management Controls Over                        Page 3 of7
                  Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                    ED/OIGA05-COO 10                              ATTACHMENT I


NCS used image editing to scan pages that the main scanning process was unable to scan.
If a document could not be scanned, the information was entered into the system
manually. The image editing department also reviewed suspect errors on-line. A suspect
error is an indication that an error may exist. Two individuals separately reviewed the
suspect error and made a determination regarding its resolution. The two resolutions
were then compared to determine if the individuals came to the same conclusion. The
Administration Header Schedule (front cover of assessment booklet) has 100 percent
verification of keyed items. The scanning system incorporated a program called the
generalized batch editing system. This program generates reports of suspect errors. The
error correction continues until all errors are corrected. The NCS scanning process
provided reasonable assurance that the data entered into the database was complete and
accurate.

NCS uses a scoring tool called Image Capture Environment (ICE). The ICE includes
significant controls to ensure accurate scoring. To ensure that scanned images are
matched with the appropriate scoring prompts, the system loads the scanned images into
the database with control information, such as the type of booklet, question number, and
book number. When the image is captured, it is tied to the control data. The scanned
images, which are the responses from the assessment booklets, are merged with another
file that contains the question and prompts used for scoring. The scanned image is called
the "clip" and the merged file is called the "overlay." The clip is placed in the center and
the overlay surrounds the clip. The scoring prompts would consist of the defined scoring
system and the labels "B," "X," "IL," "?," and "OT." The defined scoring system could
consist of correct or incorrect or some type of number point value, such as 1 for incorrect
and 4 for correct. The labels are the special coding categories for unscorable responses.

To ensure that the appropriate overlay is matched with the right clip, NCS used control
information contained in its databases. The ICE used four databases: scoring, application
repository, workflow, and operational. The scoring database contained statistical
information, the application repository database contained information about the overlay,
the workflow database contained the scoring information, and the operational database
contained information about the other databases. An NCS official identified the question
to score and the clips for that question were loaded into the workflow database along with
control information that identifies the individual clips. The ICE corresponds with the
application repository (definition database) to determine the correct overlay to merge
with the clip. The application repository defines the scoring and the labels to be used for
the specific question. This includes the scoring rubric, which is used to set up the scorer
shell dialog box. The ICE software tool gets five clips from the workflow database,
 attaches the overlays from the application repository, and sends the information to a
 scorer. The clips and overlays are loaded into their respective databases based on a
 scoring schedule.

The ICE tracks scoring, limits access to scoring batches, and runs edit checks. During
scoring information was saved to a table in the workflow database. This information
included the score, scorer's identification number, and a time stamp.



June 2003                      Review of Management Controls Over                        Page 4 of7
                  Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                     ED/OIGA05-COOIO                              ATTACHMENT 1


NCS had controls in place that limited access to make scoring changes, which enhanced
data quality. During scoring a question may get scored by one to three different scorers.
Some questions are scored a second time for interrater reliability and/or by a scoring
s~ervisor. The scores in the workflow database are referred to as the reported 1st score,
2 score, and original (supervisor) score. The 1st scorers could change their own scores
and were allowed-to go back five questions and make changes. A review queue held up
to five questions. When a new question was added to the review queue, the oldest
question moved out of the queue and the score was updated to the database. Once the
score was updated to the database, the scoring supervisor was allowed access to backread
the score. The scoring supervisor was allowed access to the scores up to four hours after
the completion ofthe scoring batch, when the batch was closed. The database allowed
                                                  nd
only one 1st score to be recorded, zero or one 2 score, and multiple supervisor scores.
While the NCS database maintains the multiple supervisor scores, only the final
supervisor score is included in the data files sent to ETS.

While NCS used interrater reliability to ensure scoring quality, it also had steps to ensure
the quality and timeliness of the data. A table in the workflow database tracked the
interrater reliability for questions so that the scoring supervisor could calculate the
interrater reliability percentage. The interrater reliability table was constantly updated
during the scoring process so that the scoring supervisor could calculate the interrater
reliability any time. The calculation only included the 1st and 2ndscores. The five
questions in the review queue were not included in the interrater reliability calculation.
The interrater reliability percentage was calculated based on individual questions. An
individual question may require more than one scoring batch.

NCS had data quality assurance steps for the batches to ensure that the data was accurate
and complete. A batch identification number identified the scoring batch. The scoring
batch remained in the database until the batch was completely scored. The completion of
scoring was signified by a prescribed number of scores being entered. The scoring
information was extracted from the database, and quality assurance edit checks were
performed to ensure data was accurate and complete. The NCS data quality assurance
steps for scoring ensured that the data was accurate and complete.

The NCS process for data delivery to ETS included steps to ensure ETS had all the
needed data and that ETS knew which score to use for analysis and reporting. These
steps included merging the data from the scoring batches into a file and determining
which score was the official score. The scanned images were not included in the file.
The optically read bubbles for the multiple-choice questions were combined with the
score given by the scorer for constructed response questions in the file. NCS had
previously scanned the assessment booklet multiple-choice bubble answers and converted
them into number values for ETS to use for scoring. The files sent to ETS were separated
by national, state, grade level, and subject. Separate files were created for scorer
identification, question name, date question scored, and assessment booklet identification
number. The ICE tracked all scorers for each question and identified the question scored.
The scorer identification file contained the official score. When NCS created the scorer
identification file, it determined which scores became the official scores. To make this


June 2003                      Review of Management Controls Over                        Page 5 of7
                  Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                      ED/OIGA05-COOlO                               ATTACHMENT 1


determination, NCS examined the reported 1st score and supervisor score. If the reported
1st score and the supervisor score were different, NCS made the supervisor score the
official score. Ifthere was no supervisor score, the reported 1st score became the official
score. The scorer identification file sent to ETS included the reported 1st, 2nd, and
original scores. Determining the official score ensured that ETS would always know
which score to use in its analysis and reporting. The NCS data quality assurance steps for
data delivery ensured ETS received all the needed data and that ETS knew which score to
use for analysis and reporting.

As part of our data completeness work, we tested management controls over scoring by
examining the NCS mainframe final data for anomalies, identifying the scorers for each
subject, and judgmentally selected scorers to interview. We used the information below
as part of our examination of the database for anomalies and reconciliation to various
documents provided by ETS and NCS. Our review of the NCS database disclosed that
there were:

 SESSION       CONSTRUCTED MULTIPLE­ CONSTRUCTED CONSTRUCTED
                  RESPONSE   CHOICE     RESPONSE   RESPONSE
                 QUESTIONS QUESTIONS     SCORERS    SCORING
                                                      DATES
Grade 4        46          35        46          March 31, 2000­
Reading                                          A~ri119, 2000


Grade 4     60                         86                 211                    March 11, 2000 ­
Mathematics                                                                      May 28,2000
Grade 8     62                         98
Mathematics
Grade 12    64                          100
Mathematics

Grade 4        80                      70                 273                    March 13, 2000­
Science                                                                          June 8, 2000
Grade 8        110                      95
Science
Grade 12       105                      91
Science


Analysis and Reporting

The ETS system of formal procedural and statistical checks was designed to ensure that
the data analysis followed the right steps in the right order and that data abnormalities
were caught and resolved. These checks included item analysis, scorer reliability
programs, item calibration, item plots, condition variable processing, and scale score
estimation. ETS used a variety of automated programs to assist in performing these
checks. The plausibility checks are a system of comparing data to expectations, historical

June 2003                        Review of Management Controls Over                        Page 6 of7
                    Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                     ED/OIGA05-COOIO                             ATTACHMENT 1


precedent, and data obtained through other analysis methods to make sure the results
make sense. When NAEP reports are written, statistics, figures, web tools, and other
materials are subjected to quality assurance.




June 2003                     Review of Management Controls Over                       Page 7 of7
                 Scoring of the National Assessment of Educational Progress 2000
FINAL AUDIT REPORT                                   ED/OIGA05-COO 10                                  ATTACHMENT 2


                              UNITED STATES DEPARTMENT OF EDUCATION 

                                  INS1TIU1E OF EDUCATION SCIENCES 





                                                                                                     June 2, 2003

       MEMORANDUM

       To.:        Richard J. Dowd
                   Regional Inspector General for Audit
                   Chicago,IL

       From:      r-
                   Grover J. Whitehurst~
                   Director, Institute of Education Sciences

       Subject:    Response to Draft Audit Report
                   Review of Management Controls Over Scoring of the National Assessment of
                   Educational Progress (NAEP) 2000
                   Control Number ED-OIG/A05-COOlO

       Thank you for the opportunity to respond to your draft report. We are pleased that the
       study resulted in a determination that management controls over scoring of the NAEP
       2000 assessment were adequate.

       We concur with the findings and recommendations and have taken steps to ensure that
       contractor monitoring is improved and that the non-material weaknesses have been
       addressed. Attached is a response from the National Center for Education Statistics
       (NeES) that documents the changes and improvements that have been implemented to
       address OIG findings and recommendations.



       Attachment

        cc: Richard Rasa, Director, Advisory & Assistance for State & Local Programs, 010
            Valerie Plisko, Director, NeES
                                  ....   ,
                                 , .. ~.:'   \   .

                                                                         • '., i't:", :'. ';~~"";;
                                                                                                         '.' ::i.
                                                                                    ,   ...~.




   June 2003                           Review of Management Controls Over                                           Page 1 of3
                         ScorIng of the National Assessment of Educational Progress 2000


                               555 NEW JERSEY AVE., NW, WASHINGTON, DC. 20208
                                                                                                      I.




   FINAL AUDIT REPORT                            ED/OIGA05-COO 10 	                           ATTACHMENT 2




                      NCES Response to OIG Draft Audit Report ED-OIG/A05-COOIO


         The draft DIG Audit Report, Review ofManagement Controls Over Scoring ofthe
         National Assessment ofEducational Progress 2000, is a thorough review of the adequacy
          of the quality of management controls over scoring of the 2000 National Assessment of
          Educational Progress. The audit comments on two nonmaterial weaknesses in the
          monitoring of the management controls over scoring ofthe 2000 NAEP in Mathematics
          and Science. Both are being addressed through improvements NCES has made to
          directing and monitoring contractor work and are described in this memo.

          1) The first weakness is that 'NCS [now NCS Pearson, the NAEP contractor for scoring]
          did not use andlor document mathematics qualifying sets for training on extended
          constructed response questions as required in the NAEP 2000 Technical Application.' To
          remedy this weakness for the 2003 NAEP, NCES has ensured that NCS Pearson and
          Educational Testing S.ervice (ETS), the NAEP contractor for design, analysis, and
          reporting, are working together to reorganize the training sets for all the extended
          constructed response items. These activities are being fully documented in contractor
          monthly reports to NCES. NCS Pearson is keeping complete records regarding
          qualifying sets of items for scoring.

          In more detail, between 10 and 20 practice papers were pulled from the Practice Set and
          placed in Qualification Sets of 10. Ifthere were less than 10 papers remaining in the
          Practice Set, the Practice Set was supplemented with responses from 2003. The new
          Training Sets for extended constructed response items were implemented for the scoring
          of the 2003 NAEP mathematics assessment. Training sets for new extended constructed
          response items are to contain:

                    Anchor Papers 	      Approximately 10 papers that definitively show the score
                                         points. These papers have scores printed on them.
                    Practice Papers 	    Usually 2 sets of 10 papers each that show more of the
                                         'gray' areas. There are no scores printed on these papers.
                                         Scorers have an opportunity to practice scoring and also
                                         ask more questions to flesh out their understanding of the
                                         rubric.
                    Qualification Papers Usually 2 sets of 10 papers each. There are no scores
                                         printed on these papers. The scorers must attain an 80%
                                         correct score to begin scoring the item.

           All of these papers are part of the training set; for each paper, the trainer explains to the
           scorers why a response was given a specific score. As recommended in further quality
           control studies, some ofthe training sets will be further expanded.

           2) The audit report also disclosed that some scorers did not meet scorer qualification
           requirements in 2000. Under the current scoring contract, NCS Pearson is allowed to
           substitute scoring experience for some academic qualifications. This is due to the
           difficulty of hiring enough scorers with the previously required academic credentials, and


                                         Review of Management Controls Over                                Page 2 of3
     June 2003
                           Scoring of the National Assessment of Educational Progress 2000

_ _---r_ _ _ _ _ _- , . . _ - , - - - - - - - - - - - - - -..                                                           ..J
FINAL AUDIT REPORT                            ED/OIGA05-COO 10                             ATTACHMENT 2



      the determination by NeES that prior successful experience in scoring and effective
      training are as critical a prerequisite for consistent, high-quality scoring as possession of
      an advanced degree or even classroom teaching experience in a specific content area.
      NeES is monitoring the qualifications of scorers through the contract process. In
      addition, NeBS has added a new level of external evaluation ofNAEP scoring quality to
      the program through the award of a separate Quality Assurance contract to the Human
      Resources Research Organization (HumRRO).

      We appreciate the opportunity to respond to the findings of the auditors and document the
      changes and improvements that have been implemented to address these findings.




   June 2003                           Review of Management Controls Over                             Page 3 of3
                         Scoring of the National Assessment of Educational Progress 2000
